Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

May 19, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: No. 19-814, McCoy v. United States
Dear Mr. Harris,
I am counsel of record for the petitioner in the above-captioned case. I
write, pursuant to this Court’s miscellaneous order of March 19, 2020, to ask
that the Court distribute the petition for writ of certiorari on June 9, 2020
(rather than on June 2, 2020). The delay is due to difficulties related to COVID19.
The United States has consented to this request.
If you have any questions, please contact me. I can be reached either by
email at my regular email address (karlan@stanford.edu) or on my cellphone:
(650) 520-4851.
Very truly yours,

Pamela S. Karlan

Counsel for Petitioner
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

